No. 20-297
IN THE
Supreme Court of the United States
TRANSUNION LLC,
v.

Petitioner,
SERGIO L. RAMIREZ,
Respondent.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR AMICI CURIAE NATIONAL
CONSUMER LAW CENTER, ET AL. IN SUPPORT
OF RESPONDENT

John G. Albanese
Counsel of Record
BERGER MONTAGUE PC
43 SE Main Street
Suite 505
Minneapolis, MN 55414
(612) 594-5997
jalbanese@bm.net

Chi Chi Wu
Ariel Nelson
NATIONAL
CONSUMER LAW
CENTER
7 Winthrop Square
4th Floor
Boston, MA 02210
(617) 542–8010
cwu@nclc.org
anelson@nclc.org

(i)
TABLE OF CONTENTS
TABLE OF AUTHORITIES
INTEREST OF THE AMICI CURIAE

iii
1

INTRODUCTION AND SUMMARY OF ARGUMENT
3
ARGUMENT

6

I. The Consumer Reporting Industry Is Massive, and
Inaccurate Reports Are a Widespread and Persistent
Problem
6
II. Consumer File Disclosures Are Crucial to the
FCRA’s Ultimate Purpose of Ensuring Fair and
Accurate Credit Reporting
9
A. The Statutory Rights Provided to Consumers
Ensure Accurate Reporting
9
B. Legislative History Shows the Importance of
File Disclosures
11
III.The Credit Reporting Systems Breaks Down When
CRAs Fail to Comply with the File Disclosure and
Summary of Rights Requirements
16
IV. TransUnion’s Violations of the FCRA’s File
Disclosure and Summary of Rights Requirements
Cause Concrete Harm
18

(ii)
V. A Holding That There Was No Concrete Harm
Would Render Unenforceable Federal Consumer
Protection Laws That Rely Heavily on Disclosure
Requirements
23
CONCLUSION

25

(iii)
TABLE OF AUTHORITIES
Constitutional Provisions
Article III, U.S. Constitution

5, 6, 21, 23, 25

Statutes
15 U.S.C. §§ 1601–1693r

24, 25

15 U.S.C. § 1681, et seq.

passim

Cases
Cortez v. Trans Union, LLC, 617 F.3d 688 (3d Cir.
2010)
4, 5, 16, 17, 18, 23
Fed. Election Comm’n v. Akins, 524 U.S. 11 (1998) 21
Fernandez v. CoreLogic Credco, LLC, Case No. 3:20cv-1262-JM-AGS (S.D. Cal. Sept. 28, 2020)
23
Gillespie v. Equifax Info. Servs., L.L.C., 484 F.3d 938
(7th Cir. 2007)
20, 21
Larson v. Trans Union, LLC, 201 F. Supp. 3d 1103
(N.D. Cal. 2016)
22
McIntyre v. TransUnion LLC, No. CV 18-3865, 2020
WL 1150443 (E.D. Pa. Mar. 5, 2020)
20
Spokeo, Inc. v. Robins, 136 S. Ct. 1540 (2016), as
revised (May 24, 2016)
21

(iv)
Uzuegbanum v. Preczewski, 592 U.S. —– (2021)

21

Legislative Material
H.R. 1015, 103rd Cong. § 120 (1994)

15

S. 783, 103rd Cong. § 116 (1994)

14

115 Cong. Rec. 2410 (Jan. 31, 1969)

12

116 Cong. Rec. 36,572 (Oct. 13, 1970)

13

140 Cong. Rec. 8942 (May 2, 1994)

14

S. Rep. No. 103-209 (1993)

14

S. Rep. No. 104-185 (1995)

16

H. R. Rep. No. 103-486 (1994)

15

Regulations
12 C.F.R. § 1022.140(a)

20

Secondary Material
Consumer Fin. Prot. Bureau, Data Point: Credit
Invisibles
(2015),
https://files.consumerfinance.gov/f/201505_cfpb_datapoint-credit-invisibles.pdf
7
Consumer Fin. Prot. Bureau, List of Consumer
Reporting
Companies
(2021),

(v)
https://files.consumerfinance.gov/f/documents/cfpb_co
nsumer-reporting-companies-list_2021.pdf
7
Fed. Trade Comm’n, Report to Congress under Section
319 of the Fair and Accurate Transactions Act of 2003
(2012),
https://www.ftc.gov/sites/default/files/documents/repo
rts/section-319-fair-and-accurate-credit-transactionsact-2003-fifth-interim-federal-tradecommission/130211factareport.pdf
7
Californians for Consumer Privacy, ICYMI: Summary
of Key Findings from California Privacy Survey (Oct.
16, 2019), https://www.caprivacy.org/icymi-summaryof-key-findings-from-california-privacy-survey/
9
Ariel Nelson, Nat’l Consumer Law Ctr., Broken
Records Redux: How Errors by Criminal Background
Check Companies Continue to Harm Consumers
Seeking
Jobs
and
Housing
(2019),
https://www.nclc.org/images/pdf/criminaljustice/report-broken-records-redux.pdf
7
Chi Chi Wu & Katie Plat, Nat’l Consumer Law Ctr. &
Cities for Financial Empowerment Fund, Account
Screening Consumer Reporting Agencies Impede
Access
for
Millions
(2015),
https://www.nclc.org/images/pdf/pr-reports/AccountScreening-CRA-Agencies-BankingAccess101915.pdf
8

( 1)
INTEREST OF THE AMICI CURIAE
The National Consumer Law Center (NCLC) is a
national
nonprofit
research
and
advocacy
organization that works for consumer justice and
economic security for low-income and other
disadvantaged people, including older adults.1 NCLC
draws on fifty years of expertise regarding the Fair
Credit Reporting Act (FCRA) and its protections for
consumers.
NCLC provides information, legal
research, and policy analysis to Congress, state
legislatures, administrative agencies and courts.
NCLC publishes Fair Credit Reporting (9th ed. 2018),
the definitive treatise on the FCRA. Its interest in
this appeal flows from its efforts to protect the
integrity of the FCRA and the rights of consumers
under the Act. The Supreme Court of the United
States has cited NCLC’s treatises with approval.
United States Public Interest Research Group
Education Fund, Inc. (U.S. PIRG Education Fund) is
an independent 501(c)(3) organization that works for
consumers and the public interest. Through research,
public education, and outreach, it serves as a
counterweight to the powerful special interests that
threaten our health, safety, and well-being. U.S.
PIRG Education Fund regularly participates as
Pursuant to Supreme Court Rule 37.6, amici state that no
counsel for a party authored this amici brief in whole or in part
and no person or entity, other than amici or their counsel, made
a monetary contribution to the preparation or submission of the
brief.

1

Pursuant to Rule 37.3(a), amici state that the parties have
consented to the filing of this brief.

( 2)
amicus curiae in cases that will have a substantial
impact on consumers and the public interest, such as
this one. U.S. PIRG Education Fund has been active
in investigating problems with, and suggesting
reforms to, the credit reporting industry to protect
consumers for over 30 years.
Consumer Action has been a champion of
underrepresented consumers nationwide since 1971.
A non-profit 501(c)(3) organization, now in its 50th
year, Consumer Action focuses on consumer education
that empowers low-and moderate-income and limitedEnglish-speaking consumers to financially prosper.
Consumer Action’s mission is to educate and advocate
for consumers who face an imbalance of power in the
marketplace. For decades, Consumer Action has
worked to improve the accuracy and reliability of
credit reports and credit scores, to hold credit
reporting agencies accountable for the information
they retain and sell, and to improve the dispute
process for individuals who risk loss of access to credit,
employment, housing and insurance because of
inaccurate data connected to their names in credit
bureau files. Consumer Action has advocated before
lawmakers and regulators to advance consumer
rights and promote industry-wide change.
Americans for Financial Reform Education Fund
(AFREF) is an independent, nonprofit coalition of
more than 200 consumer, investor, labor, civil rights,
business, faith-based, and community groups working
to lay the foundation for a strong, stable, and ethical
financial system. Through policy analysis, education,
and outreach, AFREF actively engages in advocacy for

( 3)
stronger consumer financial protections, including
protecting the rights of consumers with regard to
credit reports. AFREF’s interest in this appeal comes
from its advocacy to protect the rights of consumers
under the FCRA as the statute intended.
The Consumer Federation of America (CFA) is an
association of non-profit consumer organizations that
was established in 1968 to advance the consumer
interest through research, advocacy, and education.
Today, nearly 250 of these groups participate in the
federation and govern it through their representatives
on the organization’s Board of Directors. As a
research organization, CFA investigates consumer
issues, behavior, and attitudes and publishes these
findings in reports that assist consumer advocates
and policymakers as well as individual consumers. As
an advocacy organization, CFA works to advance proconsumer policies on a variety of issues before
Congress, the White House, federal and state
regulatory agencies, state legislatures, and the courts.
As an educational organization, CFA disseminates
information on consumer issues to the public and
news media, as well as to policymakers and other
public interest advocates. CFA promotes consumer
protection by advocating for strong laws and
regulation, encouraging enforcement of existing
consumer protection laws, such as the FCRA.
INTRODUCTION AND SUMMARY OF
ARGUMENT
Enacted over 50 years ago, the Fair Credit
Reporting Act (FCRA) has never been more important

( 4)
to ensure accuracy in the credit reporting industry
and to protect consumers. In this era of Big Data, the
consumer reporting industry is rapidly expanding,
and consumer reports include many different and
varied types of information. It is getting harder and
harder for consumers to keep track of what is being
reported about them and whether such information is
accurate.
The FCRA provides three core rights that allow
consumers to ensure that information contained in
consumer reports is accurate: (1) a consumer must be
informed when a consumer report is used against
them, 15 U.S.C. § 1681m; (2) a consumer must be
allowed to see what information their file contains, id.
§ 1681g; and (3) consumers have the right to dispute
inaccurate information, id. § 1681i. When a consumer
is provided an adverse action notice, a file disclosure,
or the results of a reinvestigation, Congress required
that the consumer be given a notice detailing their
rights.
These three rights work together, and when a
consumer reporting agency (CRA) disregards one of
these rights and fails to provide the consumer the
required notice detailing their rights, like TransUnion
did here, the system designed by Congress breaks
down. As illustrated in this case and its predecessor
litigation, Cortez v. Trans Union, LLC, 617 F.3d 688
(3d Cir. 2010), when a CRA does not disclose all
information that it includes in a consumer report or
discloses that information in a confusing manner,
consumers are not informed as to what is in their
reports and how to get them corrected.

( 5)

The legislative history of the disclosure
requirement, 15 U.S.C. § 1681g(a), shows that
Congress recognized that one of the primary ways to
ensure accuracy in credit reporting was to give
consumers full access to their files. TransUnion,
however, has repeatedly attempted to avoid
compliance with Section 1681g(a). Even after the
Cortez decision, wherein the Third Circuit
unequivocally held that Office of Foreign Asset
Control (OFAC) information included on a consumer
report had to be disclosed when a consumer requested
their file disclosure, TransUnion did not disclose
OFAC information with the rest of the consumer file.
Instead, TransUnion sent a separate letter without
the Summary of Rights required by Section 1681g(c),
leaving consumers in the dark about how to dispute
being falsely labeled a potential terrorist or drug
dealer.
Under the FCRA, it is not enough to simply make
the disclosure of the consumer’s file. The disclosure
must be clear and understandable to the consumer in
order to allow them to determine the accuracy of the
information. TransUnion’s failure to comply with
Section 1681g(a) and Section 1681g(c) was not merely
procedural or technical. Rather, this failure harmed
consumers’ concrete interests in knowing what is
being reported about them and how to correct
erroneous information.
TransUnion’s arguments regarding Article III
standing, if adopted by this Court, would not only
undermine the credit reporting system, but also many

( 6)
other aspects of federal consumer law. A large portion
of federal consumer law is based around the provision
of clear and accurate disclosures of information so
that consumers can be fully informed when making
important financial, and other, decisions. If the Court
finds that a significant violation of these disclosure
rights, like those present in this case, may not cause
concrete harm sufficient for Article III standing, it
would undermine these important protections, many
of which have been in place for decades.
ARGUMENT
I. The Consumer Reporting Industry Is
Massive, and Inaccurate Reports Are a
Widespread and Persistent Problem.
The Fair Credit Reporting Act (FCRA) was enacted
over 50 years ago, and its core protections have never
been more vital for consumers. The vast and growing
types of consumer reporting agencies (CRAs) that
collect, compile, analyze, score, and sell highly
sensitive and personal information about consumers
makes the FCRA’s file disclosure requirements even
more important than they were half a century ago.
Without these protections and rights, consumers
would have no access to the information that
thousands of CRAs are collecting and supplying to
creditors, landlords, employers, and other third
parties.
In the United States, nearly 200 million people
have credit files with one of the Big Three credit

( 7)
bureaus, TransUnion, Equifax, and Experian.2
Widespread, inaccurate credit reporting among the
Big Three remains a persistent problem. In 2012, a
Federal Trade Commission (FTC) study found that 20
percent of consumers had a verified error in their
credit reports.3
Moreover, the consumer reporting industry is not
limited to the Big Three credit bureaus. The industry
is immense, wide-ranging, and growing, with
thousands of companies creating and disseminating
consumer reports.4 These reports go far beyond
reporting mortgages, credit cards, and other lines of
credit typically seen in the reports produced by the
2Consumer Fin. Prot. Bureau, Data Point: Credit Invisibles 9, 12
(2015),
available
at
https://files.consumerfinance.gov/f/201505_cfpb_data-pointcredit-invisibles.pdf.
3Fed.

Trade Comm’n, Report to Congress under Section 319 of the
Fair and Accurate Transactions Act of 2003, at 25 (2012),
available
at
https://www.ftc.gov/sites/default/files/documents/reports/section
-319-fair-and-accurate-credit-transactions-act-2003-fifthinterim-federal-trade-commission/130211factareport.pdf.
See Ariel Nelson, Nat’l Consumer Law Ctr., Broken Records
Redux: How Errors by Criminal Background Check Companies
Continue to Harm Consumers Seeking Jobs and Housing 7–8
(2019), available at https://www.nclc.org/images/pdf/criminaljustice/report-broken-records-redux.pdf.
The
Consumer
Financial Protection Bureau publishes a partial list of some of
the larger consumer reporting agencies. Consumer Fin. Prot.
Bureau, List of Consumer Reporting Companies (2021),
https://files.consumerfinance.gov/f/documents/cfpb_consumerreporting-companies-list_2021.pdf.

4

( 8)
Big Three. Especially today, in this era of Big Data,
the amount of information that is collected and
reported on individuals is staggering.
For instance, there are hundreds, if not thousands,
of CRAs that specialize in employment and tenant
screening. These CRAs frequently provide nearinstant criminal background checks derived from vast
databases of public records that often contain
incomplete or outdated information and incorrectly
match the wrong consumers to those records with
overly loose matching criteria. As a result, these
background check reports are frequently inaccurate or
incomplete. See id. at 6–7.
There are also CRAs that specialize in bank
account information and report on purported account
abuse.5 Insurance companies use specialty CRAs that
provide information used in insurance underwriting
for property, auto, and personal property insurance.6
Other CRAs report telecom and utility bill payments.7
Medical information is also included in some
consumer reports and is scored, providing life insurers
See Chi Chi Wu & Katie Plat, Nat’l Consumer Law Ctr. & Cities
for Financial Empowerment Fund, Account Screening Consumer
Reporting Agencies Impede Access for Millions 5–6 (2015),
available
at
https://www.nclc.org/images/pdf/pr-reports/AccountScreening-CRA-Agencies-BankingAccess101915.pdf.

5

LexisNexis
Risk
https://risk.lexisnexis.com/products/clue-property.

6

Nat’l Consumer Telecom
https://www.nctue.com/.

7

&

Utilities

Solutions
Exchange,

( 9)
with a relative mortality risk.8 One CRA even
provides reports on customer returns to retail stores.9
It is getting more and more difficult for consumers
to keep abreast of who is collecting their personal
information, what information is being reported, and
how the information is being used. Yet consumers
want to know what information is being reported
about them. This is why expansive data privacy laws
like the recently passed California Consumer Privacy
Act enjoy wide popular support.10
II. Consumer File Disclosures Are Crucial to the
FCRA’s Ultimate Purpose of Ensuring Fair
and Accurate Credit Reporting.
A. The Statutory Rights Provided to
Consumers Ensure Accurate Reporting.
Congress enacted the FCRA because consumers,
along with creditors, employers, and other users of
consumer reports, have an interest in ensuring that
consumer reports are accurate. See 15 U.S.C. §
1681(a)(1) (setting forth Congressional finding that
8Millman

data/.

9

Intelliscript, https://www.rxhistories.com/irix/medical-

The Retail Equation, https://www.theretailequation.com/.

Californians for Consumer Privacy, ICYMI: Summary of Key
Findings from California Privacy Survey (Oct. 16, 2019),
https://www.caprivacy.org/icymi-summary-of-key-findings-fromcalifornia-privacy-survey/ (noting that nearly 9 out of 10 voters
approved of ballot measure that would expand consumer privacy
rights).
10

(10)
“inaccurate credit reports directly impair the
efficiency of the banking system, and unfair credit
reporting methods undermine the public confidence
which is essential to the continued functioning of the
banking system”). To accomplish this goal, the FCRA
requires CRAs to “use reasonable procedures to
assure maximum possible accuracy” in producing
reports. Id. § 1681e(b).
Congress also provided rights to consumers so that
consumers could take steps to ensure that their
reports are accurate. In particular, the FCRA grants
consumers with three essential rights that work
together to ensure fairness and accuracy in consumer
reporting: the right to an adverse action notice, the
right to a file disclosure, and the right to dispute
information.
First, a consumer is required to be told when a
consumer report is used against them. Consumer
reports can be obtained for many purposes and often
times without the consumer’s knowledge or express
authorization. Id. § 1681b. If a user of a consumer
report relies on information in the report to take an
adverse action against the consumer, the user must
inform the consumer and provide the identity of the
CRA from which the information was obtained. Id. §
1681m(a). The user must also provide a notice of the
consumer’s right to obtain a copy of the report and
dispute the information in the report.
Id. §
1681m(a)(4).
Second, the consumer has a right to request all
information in their file at the time of the request from

(11)
a CRA. Id. § 1681g(a). When a CRA discloses such
information, the agency must provide a Summary of
Rights that has been prepared, formerly by the
Federal Trade Commission (FTC) and now by the
Consumer Financial Protection Bureau.
Id. §
1681g(c)(2). The Summary of Rights includes critical
information for consumers, including information
regarding the consumer’s right to dispute any
inaccurate information.
Third, the consumer has the right to dispute any
inaccurate information. The CRA must reinvestigate
the information and notify the consumer of the results
of the reinvestigation. Id. § 1681i. When the CRA
provides the notice of its reinvestigation, it must
provide the consumer with information about the
consumer’s right to add a statement disputing the
accuracy or completeness of the information. Id. §
1681i(a)(6).
Any derogation of any of these rights severely
damages the functioning of a fair and accurate credit
reporting system. If consumers cannot meaningfully
find out what is in their reports and how to dispute
that information, inaccuracies in reports will persist.
B. Legislative History Shows the Importance
of File Disclosures.
Congress adopted Section 1681g(a) not only
because it believed consumers should have a right to
see the information that CRAs were providing to
creditors and others about them, but also to promote
the accuracy of credit reports.
Congress has

(12)
repeatedly emphasized the importance of these goals.
CRAs, on the other hand, have consistently attempted
to avoid compliance with Section 1681g(a).
Since the beginning, i.e., the debates in the late
1960s that led to the passage of the FCRA in 1970,
Congress expressed concerns that consumers did not
have adequate access to their credit reporting files.
Senator William Proxmire, considered the father of
the FCRA, decried the fact that:
Many credit reporting agencies refuse to
show consumers their files possibly out
of fear of litigation and partly to protect
its information sources. Retail Credit
will neither confirm nor deny that it
made a report on an individual on the
grounds that if it did so, its information
would dry up, litigation would increase,
and its reporting activities would be
slowed down. This argument is but
another example of the needs of business
taking precedence over consumer rights.
115 Cong. Rec. 2410 (Jan. 31, 1969).
To address this concern, Congress added a
provision to the original FCRA as enacted in October
1970 requiring CRAs to, upon the consumer’s request,
“clearly and accurately disclose to the consumer: (1)
The nature and substance of all information (except
medical information) in its files on the consumer at
the time of the request.” 15 U.S.C. § 1681g(a) (1970).

(13)
According to Congresswoman Lenore Sullivan,
often considered the mother of the FCRA:
The term ‘nature and substance of all
information’ was discussed by the
conferees, and it was agreed that the
only prohibition intended by the term
was to limit the individual from
physically handling his file . . . we
stressed that the consumer should have
access to all information in any form
which would be relayed to a prospective
employer, insurer or creditor.
116 Cong. Rec. 36,572 (Oct. 13, 1970).
However, CRAs took liberties with this language,
claiming that it only required them to provide
summaries of the credit reports of consumers, and not
the actual contents. Congress was concerned enough
about this practice that, in the 1996 Reform Act
Amendments, it modified the language of Section
1681g(a) to its current form to state that CRAs are
required, upon request, to “clearly and accurately
disclose to the consumer: (1) All information in the
consumer’s file at the time of the request.”
In debating the bills that led to the 1996 Reform
Act Amendments, Congress repeatedly noted the
importance of the disclosure of all information in a
consumer’s file held by a CRA, especially to fulfill the
purpose of promoting accuracy in credit reporting.
For example, Senator Richard Bryan (D-Nev.) who
was a lead co-sponsor in the Senate of the 1996

(14)
Reform Act Amendments, stated when introducing
the bill:
Accurate credit reports, as I have
indicated, are in everyone’s best
interest—the consumer, the credit
bureau, and the business which bases its
credit approval on these reports.
Mr. President, it is my belief the best
way to improve the accuracy of credit
reports is for individuals to review their
own files.
140 Cong. Rec. at 8942 (May 2, 1994).
The Senate Committee on Banking, Housing, and
Urban Affairs stated in its report regarding S. 783,
103rd Cong. § 116 (1994), an earlier version of the bill
that became the 1996 Reform Act, that “[t]he
Committee believes that enhancing consumers’ access
to their credit reports is an effective step towards
ensuring an accurate credit reporting system.” S.
Rep. No. 103-209, at 5 (1993). It also stated:
The Committee bill also enhances the
quality of the report information that
consumers receive. Under current law,
consumer reporting agencies must
provide consumers, upon request, with
“the nature and substance of all
information
(except
medical
information) in its files on the
consumer.” This has been interpreted to

(15)
allow a consumer reporting agency to
comply by providing summaries of
reports to consumers. The Committee is
concerned, however, that this does not
provide consumers with sufficient access
to their report information. Therefore,
section 106 of the Committee bill
requires consumer reporting agencies to
disclose “all information in the
consumer’s file at the time of the
request.”
Id. at 16–17.
Similarly, when an earlier version of the 1996
Reform Act, H.R. 1015, 103rd Cong. § 120 (1994), was
introduced, the House Financial Services Committee
stated that:
The bill is intended to provide consumers
with increased information about their
files and rights under the FCRA, and to
make available to consumers alternative
and more convenient forms in which to
receive the contents of their files.
. . . Such information is all information
on a consumer that is maintained by a
consumer reporting agency that might
be furnished, or has been furnished, in a
consumer reports on that consumer.
H. R. Rep. No. 103-486, at 39 (1994).

(16)
The Senate Committee on Banking, Housing, and
Urban Affairs also expressed its concern that the
CRAs not only disclose all the information in a
consumer’s file, but that the disclosure be
comprehensible, stating “the Committee expects that
report information will be provided in a form that can
be understood by the average consumer.” S. Rep. No.
104-185, at 43 (1995).
Thus, since the beginning, Congress emphasized
the importance of ensuring that consumers have
access to all of the information that CRAs have about
them that may be included in a consumer report.
Congress wanted to prevent the CRAs from editing
information by providing summaries, or as in this
case, sending information in a separate document,
thereby hindering consumers’ access to their own
information. Furthermore, Congress wanted this
information to be in a form that was clear and
understandable to the average consumer, which as a
jury has held, TransUnion did not achieve when it
disclosed the Office of Foreign Asset Control (OFAC)
alert in a separate letter. See Pet. App. 15.
III.

The Credit Reporting Systems Breaks
Down When CRAs Fail to Comply with the
File Disclosure and Summary of Rights
Requirements.

The essential rights provided by the FCRA,
including the disclosure and dispute rights, impose
costs on CRAs. Thus, CRAs have gone to great lengths
to avoid meaningful compliance with the FCRA. This
case and its predecessor litigation, Cortez v. Trans

(17)
Union, LLC, 617 F.3d 688 (3d Cir. 2010), illustrate
how the intended functioning of the FCRA breaks
down when a CRA does not comply with the file
disclosure and summary-of-rights requirements.
In Cortez, TransUnion issued a report, in 2005, on
Sandra Cortez to a car dealership that inaccurately
stated that she was possibly a match to a person on
the OFAC list of Specially Designated Nationals. Id.
at 698.
Ms. Cortez had requested her TransUnion credit
file before going to the dealership, but there was no
OFAC alert or notification in the file. Id. at 697. After
the incident at the dealership, Ms. Cortez contacted
TransUnion four times to correct her report but
TransUnion asserted repeatedly that the OFAC alert
was not on her credit report. Id. at 699–700. She went
back to the dealership and asked them to pull her
report again. The credit report from TransUnion once
again contained the OFAC alert. Id. at 700. The same
OFAC alert later appeared on a report issued to Ms.
Cortez’s putative landlord. Id. at 700–01. Ms. Cortez
could not access the information that was reported on
her, nor could she meaningfully dispute the
inaccurate information.
Ms. Cortez eventually sued TransUnion.
TransUnion asserted that the OFAC alert was not in
Ms. Cortez’s TransUnion consumer file because it was
in a separate database maintained by TransUnion’s
vendor and therefore did not have to be disclosed to
Ms. Cortez. Id. at 711. The Third Circuit rejected
TransUnion’s defense, stating that “Congress clearly

(18)
intended the protections of the FCRA to apply to all
information furnished or that might be furnished in a
consumer report” and that the OFAC alert was part of
the consumer’s file. Id. at 711–12.
As shown by Cortez, when a CRA does not comply
with Section 1681g, the system designed by Congress
for ensuring the accuracy of credit reports breaks
down. A consumer cannot meaningfully dispute
inaccurate items of information on a credit report if
the CRA never discloses to the consumer that certain
information is on the credit report in the first
instance. A consumer also needs to be informed of
what steps can and need to be taken in order to
dispute the accuracy of information with a CRA.
IV. TransUnion’s Violations of the FCRA’s File
Disclosure and Summary of Rights
Requirements Cause Concrete Harm.
Here, despite the clear warning from the Third
Circuit in Cortez, TransUnion did not start treating
the OFAC alerts as part of consumers’ files that is
disclosed with their credit reports.
Instead,
TransUnion began sending a separate letter that was
not accompanied by the Summary of Rights.
The jury found that TransUnion willfully violated
Section 1681g(a) by sending consumers a mailing that
professed to include all the information in their files
but did not include the OFAC alerts. See Pet. App. 15.
Instead, “[a]s a courtesy,” TransUnion subsequently
mailed class members a letter stating that their
names were “considered a potential match” to names

(19)
on the OFAC list. Pet. App. 36; see also JA 92. These
OFAC letters stated that they were “separate[]” from
the previously mailed disclosure of the TransUnion
credit report, rather than an amendment. Pet. App.
26; see also JA 92. The jury also found that
TransUnion willfully violated Section 1681g(c) by
failing to include the Summary of Rights along with
the separate OFAC letters. See Pet. App. 15.
The two mailings were “inherently . . . confusing,”
and named plaintiff Sergio Ramirez testified to that
effect. Pet. App. 7–8, 34. Although the lack of OFAC
information on the credit report mailing suggested
that the OFAC alert had been removed from his
report, the second letter suggested the opposite. Pet.
App. 7–8. At the same time, the second letter
disclaimed that it was providing Mr. Ramirez with
information from his file, stating instead that it was
being provided “[a]s a courtesy” and not as required
by law. See JA 320. At best, the two mailings created
an ambiguity as to whether the OFAC alert was in the
consumer’s file and thus included on the credit report.
JA 320. Further, because the OFAC letter did not
include instructions for initiating a dispute, Mr.
Ramirez did not know how he could fix the problem.
Pet. App. 8. The mailings therefore failed to satisfy
Section 1681g(a)’s clear and accurate disclosure
standard. Under the FCRA, it is not enough to simply
make the disclosure of the consumer’s file. The
disclosure must be clear and understandable to the
consumer and “made in a manner sufficient to allow
the consumer to compare the disclosed information
from the credit file against the consumer’s personal
information in order to allow the consumer to

(20)
determine the accuracy of the information.” Gillespie
v. Equifax Info. Servs., L.L.C., 484 F.3d 938, 941 (7th
Cir. 2007) (explaining that even an “accurate
disclosure of unclear information defeats the
consumer’s ability to review the credit file,
eliminating a consumer protection procedure
established by Congress under the FCRA.”).
In addition to violating Section 1681g(a),
TransUnion’s position that it either does not need to
disclose OFAC alerts or that they can be sent
separately from the rest of the file disclosure because
they originate from a separate database located at
TransUnion’s vendor contradicts the FCRA’s
circumvention provisions and their implementing
rules in Regulation V. See 15 U.S.C. § 1681x; 12
C.F.R. § 1022.140(a).
These provisions prevent
nationwide CRAs like TransUnion from using
corporate structure or organization to evade the
requirements of the FCRA.
See McIntyre v.
TransUnion LLC, No. CV 18-3865, 2020 WL 1150443,
at *3–4 & n.3 (E.D. Pa. Mar. 5, 2020) (holding that
plaintiff sufficiently alleged TransUnion evaded its
obligation to make a full and accurate disclosure
under Section 1681g(a)(1) through the use of
corporate organization, reorganization, structure, or
restructuring in case where eviction information was
maintained and sold by TransUnion subsidiary).
The violations here cannot be shrugged off as
“harmless” or “technical.” TransUnion’s conduct
harmed class members’ concrete interests that the
FCRA’s
disclosure
and
summary-of-rights
requirements are intended to protect: consumers’

(21)
interests in knowing what is in their credit files and
understanding how to dispute inaccurate information.
Pet. App. 31; see Gillespie, 484 F.3d at 941 (“A primary
purpose[] of the statutory scheme provided by the
disclosure in § 1681g(a)(1) is to allow consumers to
identify inaccurate information in their credit files
and correct this information via the grievance
procedure established under § 1681i.”); see also Fed.
Election Comm’n v. Akins, 524 U.S. 11, 21 (1998) (“[A]
plaintiff suffers an ‘injury in fact’ when the plaintiff
fails to obtain information which must be publicly
disclosed pursuant to a statute.”).
Sending two separate mailings—one that
purported to be the consumer’s entire credit file but
was not and another that was sent “[a]s a courtesy”
and did not include the Summary of Rights—posed an
imminent risk that class members would be in the
dark about whether they had a damaging label on
their credit reports and whether and how they could
remove such a label from their reports. These injuries
satisfy Article III’s injury-in-fact requirement; the
class members did not need to allege any further
consequential harm. See Spokeo, Inc. v. Robins, 136
S. Ct. 1540, 1549 (2016), as revised (May 24, 2016)
(“[T]he violation of a procedural right granted by
statute can be sufficient in some circumstances to
constitution injury in fact. . . . [A] plaintiff in such a
case need not allege any additional harm beyond the
one Congress has identified.”). As recently recognized
by this Court, there is a long common law tradition of
allowing plaintiffs to proceed in court for violations of
nonpecuniary rights like those violated here.
Uzuegbanum v. Preczewski, 592 U.S. —–, —– (2021)

(22)
(slip. op. at 8) (“By permitting plaintiffs to pursue
nominal damages whenever they suffered a personal
legal injury, the common law avoided the oddity of
privileging small-dollar economic rights over
important, but not easily quantifiable, nonpecuniary
rights.”).
TransUnion points to evidence that the “two-letter
format”
increased
consumers’
contact
with
TransUnion relative to later single-letter mailings to
suggest that class members could not have been
confused and could not have suffered a concrete
injury-in-fact. Pet. Br. 32–33. But more consumers
could have reached out to TransUnion precisely
because they were confused about having received two
separate letters. See Larson v. Trans Union, LLC, 201
F. Supp. 3d 1103, 1106 (N.D. Cal. 2016) (finding
concrete injury where plaintiff argued that separate
OFAC letter provided as a “courtesy” and not as part
of the disclosure left him and the class confused as to
whether they had a right to dispute the OFAC alert).
Imagine a situation where not only OFAC
information, but every other component of a credit
report is unbundled and sent separately to consumers
over the course of a week, with the required Summary
of Rights attached to the first mailing only. Credit
accounts would arrive in the first mailing, credit
inquiries in the second mailing, collection accounts in
the third mailing, public records in the fourth mailing,
and so on. A consumer would wonder: is each of these
items in my file and are all of these items things that
the credit bureau will share with potential creditors?
Or are some of these items something different than a

(23)
credit report? And if the information in one of the
items was inaccurate, the consumer would wonder:
how can I fix this problem? Providing each component
of a credit report separately would not be a clear and
understandable method of providing a file disclosure.
To the contrary, it would make it nearly impossible to
effectively monitor one’s credit reports and promptly
correct any inaccuracies.
Even after Cortez and the significant jury verdict
in this case, CRAs are still failing to provide
information regarding reporting OFAC alerts when a
consumer requests the consumer’s file. See, e.g., First
Amended Class Action Complaint ¶¶ 10, 77–81,
Fernandez v. CoreLogic Credco, LLC, Case No. 3:20cv-1262-JM-AGS (S.D. Cal. Sept. 28, 2020), ECF No.
14 (alleging that CoreLogic Credco violated Section
1681g(a) by failing to include OFAC alert in file
disclosure).
V.

A Holding That There Was No Concrete
Harm
Would
Render
Unenforceable
Federal Consumer Protection Laws That
Rely Heavily on Disclosure Requirements.

Almost all federal consumer protection laws rely
on disclosure as a component, and for some, it is the
primary means with which they protect consumers. A
holding that violation of the FCRA disclosure
requirements does not cause concrete harm for Article
III standing purposes would render unenforceable
major portions of the federal statutory scheme for
safeguarding consumers. It would also imply that
these
disclosures
are
meaningless,
directly

(24)
contradicting the intent and purpose of Congress in
enacting them. One statute that would be affected is
the Truth in Lending Act (TILA), 15 U.S.C. §§ 1601–
1693r, which like the FCRA, is part of the Consumer
Credit Protection Act (CCPA), the umbrella for many
of the federal consumer laws passed in the late 1960s
and early 1970s.
TILA, and its components, including the Credit
CARD Act, Consumer Leasing Act, and Fair Credit
Billing Act, is primarily a disclosure statute.
Congress explicitly stated that “the purpose of this
title [is] to assure a meaningful disclosure of credit
terms so that the consumer will be able to compare
more readily the various credit terms available to him
and avoid the uninformed use of credit.” Id. § 1601(a).
TILA’s disclosure requirements include the credit
card “Schumer Box” for applications, as well as
requirements for account opening disclosures and
monthly statements. Id. §§ 1637(b), (c). For closedend credit such as mortgages and auto loans, TILA
requires the familiar closed-end credit disclosure with
a box for the Annual Percentage Rate, Finance
Charge, Amount Financed, and Total of Payments.
Id. §§ 1632, 1638.
A failure by a creditor to provide one of the above
TILA disclosures at all would cause a significant
informational harm to the consumer. For example,
consumers would be left ignorant of the price they are
paying for credit if deprived of a TILA disclosure when
they closed on their mortgage, the very evil that
Congress intended to prevent in passing TILA.

(25)
But it is not only the utter failure to make a
disclosure that can cause harm. Improper formatting
or omission of critical elements can also harm the
consumer by making the disclosure confusing and
incomprehensible. Imagine if the TILA disclosure
provided at a car dealership did not include the
familiar mandatory box but instead had the
information scattered in fine print throughout the
paperwork. Or if a credit card company mailed a
consumer’s list of monthly credit card transactions
separately from the disclosure of the minimum
payment required for the month, contrary to the
format required by TILA and its implementing
regulations.
If this Court were to hold that there is no concrete
harm from a failure to properly provide disclosures in
a single document as required by consumer protection
laws and regulations, creditors and other companies
would be free to mangle mandatory disclosures with
the certainty that they could not be held accountable
by consumers. It would create confusion due to
inconsistent information in the consumer credit
market. Furthermore, a holding that mangling a
consumer protection disclosure cannot cause concrete
harm for Article III standing purposes sends a
message from the highest court in the land that the
disclosures are of little or no value despite Congress’s
explicit purpose in adopting them.
CONCLUSION
The FCRA and the disclosure and summary of
rights requirements set forth in Section 1681g(a) and

(26)
Section 1681g(c) have never been more important to
ensuring fairness and accuracy in the credit and
consumer reporting industries.
TransUnion’s
repeated disregard of the straightforward command of
the FCRA’s disclosure requirement harmed
consumers and undermined Congress’s specific intent
in providing tools to promote accuracy in the credit
reporting system.
The Ninth Circuit correctly
recognized the class members’ concrete interests
protected by Section 1681g(a) and Section 1681g(c),
and the harm to those interests caused by
TransUnion’s conduct. The decision of the Ninth
Circuit should be affirmed.
Respectfully submitted,
John G. Albanese
Counsel of Record
BERGER MONTAGUE PC
CONSUMER LAW
43 SE Main Street
Suite 505
Minneapolis, MN 55414
(612) 594–5997
jalbanese@bm.net

Chi Chi Wu
Ariel Nelson
NATIONAL
CENTER
7 Winthrop Square,
4th Floor
Boston, MA 02210
(617) 542–8010
cwu@nclc.org
anelson@nclc.org

